              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Transfer of Excess Personal Property
From the Nevada Test Site to the
Community Reuse Organization




DOE/IG-0589                                 March 2003
TRANSFER OF EXCESS PERSONAL PROPERTY FROM THE
NEVADA TEST SITE TO THE COMMUNITY REUSE ORGANIZATION

TABLE OF
CONTENTS



               Transfer of Property to the Community Reuse Organization

               Details of Finding ........................................................................1

               Recommendations and Comments.............................................4


               Appendices

               1. Guidance on Disposition of Excess Personal Property..........5

               2. Management Comments........................................................9

               3. Objective, Scope, and Methodology ....................................11
TRANSFER OF PROPERTY TO THE COMMUNITY REUSE
ORGANIZATION
Transfer of Excess   Certain excess personal property transferred by Nevada to the
Personal Property    Community Reuse Organization (CRO) was not in the best interest of
                     the taxpayers. For instance, in February 2002, Nevada transferred a
                     drill rig to the CRO, which ultimately sold it to an equipment broker
                     located in Texas. This broker was not involved in local community
                     transition activities. The equipment broker originally sent a request to
                     purchase the equipment to Nevada in June 2001. Before acting on the
                     broker's request, Nevada offered the equipment to other Department
                     sites and other Federal agencies, but did not receive any requests for
                     the equipment. Rather than offer the drill rig competitively through
                     the General Services Administration, however, Nevada instructed the
                     CRO to purchase the drill rig, for future sale to the equipment broker.

                     The CRO paid Nevada $50,000 for the drill rig, paid a subcontractor
                     $71,000 to clean the drill rig, and incurred $4,000 in additional
                     expenses. The CRO sold the drill rig to the equipment broker for
                     $248,000, realizing a profit of approximately $123,000. The
                     equipment broker is currently offering to sell the drill rig for $3.9
                     million. While we have no way of knowing whether the Texas broker
                     will ultimately sell the drilling rig for this price, the broker stands to
                     make a considerable profit without providing a direct and substantial
                     benefit to the local community.

                     Although the CRO had possession of the property listing that
                     contained the drill rig three months prior to the transaction, the CRO
                     neither requested to purchase the drill rig from Nevada, nor did it
                     submit a statement of sole purpose for intended use of the property. In
                     fact, Nevada initiated the transfer of the drill rig to the CRO to
                     accomplish the sale to the equipment broker, thereby avoiding
                     competition among other interested parties.

                     Additionally, in transactions through July 2000, Nevada sold 439
                     pieces of equipment to the CRO in 40 separate transactions, receiving
                     only one dollar per transaction. Examples of the property transferred
                     included trucks, cranes, a front-end loader, welders, and other
                     equipment. In four of the transactions, Nevada transferred a total of 23
                     trucks to the CRO with a combined acquisition value of $447,932.
                     Nevada received an average of 17 cents for each truck. All 23 trucks
                     were listed in good condition with some needing repairs. The majority
                     of the trucks were subsequently transferred to community transition
                     subcontractors and sold. The proceeds of these sales were, for the
                     most part, shared between the CRO and the subcontractor. In those
                     cases where the trucks were sold, the Department did not formally
                     approve the sales, or obtain a plan documenting the use of the


Page 1                                                                      Details of Finding
                            proceeds, as now required by the guidance recently issued by the
                            Office of Worker and Community Transition.

                            One transfer of 20 pieces included a copy machine, acquired for
                            $9,310, which was less than one year old. Nevada received a nickel
                            for the copy machine. A transfer of four pieces included two trailers,
                            originally acquired for $101,000, that were listed in good condition
                            with one needing repairs. Nevada received about 50 cents for the two
                            trailers. Nevada did not establish the fair market value of these items
                            at the time of transfer.

                            In another instance, Nevada transferred laboratory equipment to the
                            CRO in 1997 that was needed at another Department site. While the
                            Department's guidance and Nevada's Memorandum of Understanding
                            (MOU) with the CRO allowed Nevada to determine the recipient of
                            property in cases where there are two parties who request the property,
                            we question Nevada's transfer of the laboratory equipment to the CRO.
                            Specifically, Lawrence Livermore National Laboratory's (Livermore)
                            request for the equipment preceded the CRO's request by 13 months
                            and, ultimately, this action cost the Department $2.5 million.
                            Livermore had similar equipment identified in its capital budget
                            request and could have avoided making the purchase if it had received
                            the excess equipment from Nevada. Finally, Nevada transferred the
                            equipment to the CRO without receiving consideration.

                            Since July 2000, Nevada has determined the fair market value of
                            transferred items and has sold the items to the CRO for more than one
                            dollar per transaction. For example, Nevada received $1,950 and
                            $6,500 for two motor homes that had fair market values of $3,000 and
                            $8,000, respectively. In addition, Nevada received $1,277 and $1,314
                            for two trucks with fair market values of $2,500 and $2,600,
                            respectively. While these transfers indicate improved performance, the
                            transfer of the drill rig in February 2002 demonstrates that additional
                            improvements still need to be made in this program.

Guidance for Transferring   Overall, Nevada did not manage the transfers to the CRO in the best
Property                    interest of the taxpayers because existing Department guidance lacked
                            specificity and did not give full consideration to the Government's
                            stewardship responsibilities. For instance, the Department's guidance
                            and the existing MOU allowed Nevada's manager to decide between the
                            CRO and another Department site when both parties requested the same
                            property. The Department's core missions must take precedence over
                            the CRO. Clearly, the Department should not have to use its scarce


Page 2                                                                           Details of Finding
                     resources to purchase additional equipment that already exists within its
                     own inventory. In fact, other federal agencies such as the Air Force
                     may identify personal property as "not available for reuse" by CROs if
                     the personal property is needed by the military or other Federal
                     agencies.

                     Finally, the Department lacked procedures to determine the appropriate
                     amount of consideration that should be received from the CRO in
                     exchange for its personal property transfers. While sound business
                     practices suggest that fair market value would be the starting point for
                     determining reasonable consideration, Nevada did not determine the
                     fair market value of the property when negotiating a transfer price with
                     the CRO. According to Nevada personnel, management placed
                     emphasis on economically supporting the CRO and directed that
                     equipment be transferred to the CRO at one dollar per transfer. When
                     Nevada personnel determined that the CRO subcontractors sold the
                     equipment instead of using it for economic development, they drafted a
                     letter that would have required the CRO to reimburse Nevada for the
                     property and to stop future sales. However, the letter was not issued.
                     Instead, Nevada modified its MOU with the CRO to make it easier for
                     the CRO to sell the assets.

                     On January 22, 2003, the Office of Worker and Community Transition
                     issued a memorandum (Appendix 1) that should help ensure that future
                     personal property transfers are more closely monitored. The
                     memorandum states that the proceeds from asset conversion programs
                     must be used in support of clear community economic development
                     purposes. The memorandum also sets forth priorities for uses of
                     excess personal property and defines the uses of proceeds if the
                     property is sold and readily converted to cash. Most importantly, the
                     memorandum establishes a revenue sharing arrangement, to be
                     negotiated on a site-by-site basis. Finally, the document requires that
                     any excess item must be processed through standard screening
                     procedures prior to being released to a CRO.

Department's Funds   As a result of these transfers, the Department's funds were adversely
Impacted             impacted. The equipment broker currently in possession of the drill rig
                     may realize a considerable profit upon the sale of the equipment.
                     These funds might otherwise have been available to the Department or
                     the communities surrounding the Nevada Test Site. Further,
                     transferring hundreds of pieces of equipment for a total consideration
                     of $40 is unreasonable and represents an undetermined amount of
                     funds that could have been received by the Government. Finally, the
                     Department unnecessarily incurred expenses of $2.5 million when


Page 3                                                                    Details of Finding
                  Livermore had to purchase laboratory equipment that was already
                  available at Nevada.

                  We also noted that Nevada's objectives relating to its community
                  transition program will be compromised as long as personal property
                  transfers to companies not engaged in economic development activities
                  continue to occur.

RECOMMENDATIONS   We recommend that the Associate Administrator for Management and
                  Administration, NNSA, define the term "reasonable consideration" in
                  coordination with Department of Energy officials.

                  We also recommend that the Senior Procurement Executive, NNSA:

                     1. Ensure that only unneeded property is transferred to the CROs;
                        and,

                     2. Receive reasonable consideration for property transferred to the
                        CROs.


MANAGEMENT        The Associate Administrator for Management and Administration,
REACTION          NNSA, agreed with our recommendations and stated that the
                  Memorandum from the Department's Office of Worker Transition
                  would provide better direction for transferring personal property to
                  community reuse organizations. We have included management's
                  comments in their entirety as Appendix 2.




Page 4                                              Recommendations and Comments
Appendix 1




Page 5       Guidance on Disposition of Excess Personal Property
Appendix 1 (continued)




Page 6                   Guidance on Disposition of Excess Personal Property
Appendix 1 (continued)




Page 7                   Guidance on Disposition of Excess Personal Property
Appendix 1 (continued)




Page 8                   Guidance on Disposition of Excess Personal Property
Appendix 2




Page 9       Management Comments
Appendix 2 (continued)




Page 10                  Management Comments
Appendix 3
OBJECTIVE     The objective of our audit was to determine whether the personal
              property transferred by the Nevada Site Office to the CRO was in the
              best interest of the taxpayers.


SCOPE         The audit was performed from August to December 2002 at the Nevada
              Site Office in Las Vegas, Nevada, as well as NNSA Headquarters and
              the Department's Office of Worker and Community Transition and
              Office of Procurement and Assistance Management in Washington,
              DC. The scope of the audit included a review of Nevada's transfers of
              excess personal property to the CRO.



METHODOLOGY   To accomplish the audit objective, we:

                     •   Evaluated Federal and Department guidance concerning
                         personal property transfers to community reuse
                         organizations;

                     •   Reviewed files and documentation related to Nevada's
                         personal property transfers;

                     •   Analyzed personal property inventory listings; and,

                     •   Held discussions with cognizant Department and contractor
                         personnel.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the objective of the audit. Accordingly,
              the audit included a review of Nevada's disposal of excess personal
              property to the CRO. Because our audit was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. As part of our review, we also
              evaluated the Department's implementation of the Government
              Performance and Results Act of 1993. We found that Nevada had
              performance measures for personal property disposals but did not have
              specific performance measures for property transfers to the CRO. We
              did not conduct a reliability assessment of computer-processed data
              because only a very limited amount of computer-processed data was
              used during the audit.

              NNSA waived the exit conference.

Page 11                                        Objective, Scope, and Methodology
                                                                              IG Report No.: DOE/IG-0589

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
